TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Many Taxpayers Who Were Not Eligible
                     Received Additional Education Credits
                     Intended for Those Attending Schools
                         in Midwestern Disaster Areas



                                      September 23, 2010

                              Reference Number: 2010-40-123




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                         HIGHLIGHTS


MANY TAXPAYERS WHO WERE NOT                          education credit tax relief available to affected
ELIGIBLE RECEIVED ADDITIONAL                         taxpayers in the Midwestern Disaster Areas.
EDUCATION CREDITS INTENDED FOR                       WHAT TIGTA FOUND
THOSE ATTENDING SCHOOLS IN
MIDWESTERN DISASTER AREAS                            TIGTA’s review of a statistically valid sample of
                                                     383 tax returns with claims for more than the
                                                     standard maximum amount of Hope Credit
Highlights                                           determined that 197 of the claims were for
                                                     students who did not qualify for the Hope Credit,
Final Report issued on                               did not attend school in the Midwestern Disaster
September 23, 2010                                   Areas, or may not have attended school at all.
                                                     TIGTA found that the taxpayers making these
                                                     claims received $224,504 more than they were
Highlights of Reference Number: 2010-40-123
                                                     entitled to. Based on this data, TIGTA estimates
to the Internal Revenue Service Commissioner
                                                     that taxpayers filing 48,940 tax returns with such
for the Wage and Investment Division.
                                                     claims erroneously received almost $55.8 million
IMPACT ON TAXPAYERS                                  in excessive Hope Credits for Tax Year 2008.

Tax credits are available to help taxpayers offset   Overall, TIGTA found that the IRS has no
the costs of higher education. These credits are     controls in place to determine whether students
available to certain taxpayers who pay qualified     qualify for more than the standard maximum
education expenses for higher education for          amount. TIGTA also found that there is no
themselves, their spouses, or dependents. The        maximum limit programmed for the amount of
Hope Credit is limited to eligible students          Hope Credit that can be claimed other than the
enrolled in their first 2 years of post-secondary    adjusted gross income limitations. The only
education. Congress passed the Heartland             other limitation appears to be a taxpayer’s tax
Disaster Tax Relief Act of 2008 with provisions      liability.
benefitting taxpayers affected by a major
                                                     WHAT TIGTA RECOMMENDED
disaster. One provision allowed taxpayers with
eligible students attending eligible educational     The IRS should ensure that only qualifying
institutions in the designated Midwestern            taxpayers are allowed to receive more than the
Disaster Areas to claim twice the qualifying         normal maximum amount of Hope Credit
amount of education credits. For Tax                 allowed. Taxpayers that have improperly
Year 2008, this increased the maximum amount         received an excessive amount of credit should
of Hope Credit from $1,800 to $3,600 for each        be examined, and any excessive amounts
qualifying student.                                  claimed should be recovered. Additional steps
                                                     should also be taken to ensure that taxpayers
Some taxpayers are claiming more than the
                                                     qualify for the additional amount. The IRS
standard maximum amount of Hope Credit even
                                                     should also ensure adherence to increased
though the listed students do not qualify under
                                                     maximums on any future provisions.
the Heartland Disaster Tax Relief Act of 2008.
In other instances, the students may not qualify     IRS management agreed with three
for any portion of the Hope Credit.                  recommendations and partially agreed with one
                                                     recommendation. Management agreed to
WHY TIGTA DID THE AUDIT                              conduct examinations of improper claims,
This audit was initiated because, during a prior     evaluate the feasibility of an automated process
audit of education credits, TIGTA found              to verify claims, update computer processing
indications that control weaknesses may exist        controls to limit the amount of Credit that can be
that allow taxpayers to claim Hope Credits           claimed, and make modifications to forms to
greater than the amounts allowed. The overall        increase compliance in the future.
objective of this audit was to determine whether
Internal Revenue Service (IRS) controls were in
place to ensure only eligible taxpayers received
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 23, 2010


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Many Taxpayers Who Were Not Eligible
                             Received Additional Education Credits Intended for Those Attending
                             Schools in Midwestern Disaster Areas (Audit # 201040033)

 This report presents the results of our review to determine whether Internal Revenue Service
 controls were in place to ensure only eligible taxpayers received education credit tax relief
 available to affected taxpayers in the Midwestern Disaster Areas. This audit is part of the
 Treasury Inspector General for Tax Administration’s Fiscal Year 2010 Annual Audit Plan and
 addresses the major management challenge of Implementing Tax Law Changes.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (202) 622-5916.
                                           Many Taxpayers Who Were Not Eligible
                                           Received Additional Education Credits
                                           Intended for Those Attending Schools
                                               in Midwestern Disaster Areas




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Some Taxpayers Received More Hope Credit Than
          They Were Entitled to Receive ..................................................................... Page 3
                    Recommendations 1 and 2: ................................................ Page 5

                    Recommendations 3 and 4: ................................................ Page 6


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 7
          Appendix II – Major Contributors to This Report ........................................ Page 9
          Appendix III – Report Distribution List ....................................................... Page 10
          Appendix IV – Outcome Measure ................................................................ Page 11
          Appendix V – Management’s Response to the Draft Report ....................... Page 12
        Many Taxpayers Who Were Not Eligible
        Received Additional Education Credits
        Intended for Those Attending Schools
            in Midwestern Disaster Areas




            Abbreviations

IRS   Internal Revenue Service
TY    Tax Year
                                        Many Taxpayers Who Were Not Eligible
                                        Received Additional Education Credits
                                        Intended for Those Attending Schools
                                            in Midwestern Disaster Areas




                                               Background

Tax credits are available to help taxpayers offset the costs of higher education. These credits are
available to taxpayers who pay qualified expenses for higher education for themselves, their
spouses, or their dependents that are claimed as exemptions on their tax returns as long as they
are eligible students.
       •   Hope Credit – For each eligible student in Tax Year (TY) 2008, this credit was equal to
           100 percent of the first $1,200 of qualified education expenses and 50 percent of the next
           $1,200 of qualified expenses, for a
           maximum credit of $1,800 per
           eligible student. The amount of the               The Heartland Disaster Tax Relief
           Hope Credit is phased out if the               Act of 20081 allows students attending
           modified adjusted gross income is             an eligible educational institution located
           between $48,000 and $58,000                    within the “Midwestern Disaster Area”
                                                                to claim twice the amount of
           ($96,000 and $116,000 if a joint                Hope and Lifetime Learning Credits.
           return is filed). This credit is limited
           to eligible students enrolled in their
           first 2 years of post-secondary
           education attending at least half-time. It does not apply to the third, fourth, or higher
           years of undergraduate or graduate programs.1
       •   Lifetime Learning Credit – In TY 2008, this credit was equal to 20 percent of the first
           $10,000 of qualified education expenses, for a maximum credit of $2,000 per eligible
           taxpayer. This credit is available every year for an unlimited number of years.
       •   American Opportunity Credit – The American Recovery and Reinvestment Act of 20092
           added this credit for TYs 2009 and 2010, making this education credit partially
           refundable and making it available to a broader range of taxpayers. For these years, this
           credit is equal to the sum of 100 percent of the first $2,000 of qualified tuition and related
           expenses and 25 percent of the next $2,000, for a total maximum credit of $2,500 per
           eligible student. The credit is also expanded to apply to the first 4 years of
           post-secondary education.
Institutions of higher education are required to provide each student with a Tuition Statement
(Form 1098-T) that reports payments received or amounts billed for qualified tuition and related
expenses, scholarships and grants given, adjustments made for a prior year, and the name and


1
    Pub. L. No. 110-343, 122 Stat. 3912.
2
    Pub. L. No. 111-5, 123 Stat. 115 (2009).
                                                                                                  Page 1
                                      Many Taxpayers Who Were Not Eligible
                                      Received Additional Education Credits
                                      Intended for Those Attending Schools
                                          in Midwestern Disaster Areas


location of the institution. The taxpayer in turn reports qualified education expenses on
Education Credits (American Opportunity, Hope, and Lifetime Learning Credits) (Form 8863)
and claims the credit on the appropriate line of the U.S. Individual Income Tax Return
(Form 1040). In addition, educational institutions provide the Internal Revenue Service (IRS)
with the same Form 1098-T information they provided to the students. This information is
entered onto the IRS’ Information Returns Master File.3 The data on this system can help to
validate the information provided on taxpayers’ tax returns.
Congress passed the Heartland Disaster Tax Relief Act of 2008, with provisions benefiting
taxpayers affected by a major disaster. One provision allowed eligible students attending eligible
educational institutions in specific counties located within the States of Arkansas, Illinois,
Indiana, Iowa, Missouri, Nebraska, and Wisconsin to claim twice the normal amount of the Hope
and Lifetime Learning Credits. For students attending school in the counties that encompass the
“Midwestern Disaster Area,” the maximum amount of Hope Credit was increased from $1,800 to
$3,600 for each qualifying student, and the maximum amount of Lifetime Learning Credit was
increased from 20 percent of the maximum qualified education expenses paid to 40 percent. The
definition of qualified education expenses was also expanded to include books, supplies, and
equipment required for enrollment or attendance, as well as reasonable costs for qualified room
and board. The American Opportunity Credit was not affected.
This review was performed at the IRS Campus4 in Ogden, Utah, during the period October 2009
through April 2010. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




3
  A database containing all information returns transcribed by the IRS. It contains data about both the payer (filer)
as well as data about the payee (recipient of income) from various forms.
4
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                               Page 2
                                     Many Taxpayers Who Were Not Eligible
                                     Received Additional Education Credits
                                     Intended for Those Attending Schools
                                         in Midwestern Disaster Areas




                                      Results of Review

Some Taxpayers Received More Hope Credit Than They Were Entitled
to Receive
The Hope Credit can be claimed for eligible students enrolled in their first 2 years of
post-secondary education. Students attending eligible educational institutions located within the
Midwestern Disaster Area may claim up to twice the standard maximum amount of Hope Credit.
For TY 2008, this equals $3,600 (100 percent of the first $2,400 in qualified education expenses
and 50 percent of the next $2,400 of
qualified education expenses). The
maximum amount is available for each            We found that 51 percent of Hope Credit
qualifying student.                               claims for greater than the standard
                                                         maximum amount were for students that
From the IRS’ Individual Return                 did not qualify for the Hope Credit, did not
                 5                             attend  school in a Midwestern Disaster Area,
Transaction File on the Treasury
Inspector General for Tax Administration           or may not have attended school at all.
Data Center Warehouse,6 we identified
95,149 TY 2008 Forms 1040 (cases) that
included claims for more than the standard maximum amount of Hope Credit (we included
claims by taxpayers with either 1 or 2 students). We analyzed a statistically valid sample of
383 cases to determine whether the “qualifying” students were eligible to receive the higher
amount of Hope Credit. From our sample, we found that 197 claims (51 percent) were for
students that did not qualify for the Hope Credit, did not attend school in a Midwest Disaster
Area, or may not have attended school at all.7
    •   For 44 of 197 cases, IRS records (Form 1098-T data on the Information Returns Master
        File) showed that these students did not qualify for the Hope Credit because they were
        not at least half-time students or they were graduate students.
    •   For 101 of the 197 cases, IRS records indicated that the students for which the credits
        were claimed appeared to have qualified for the credits, but had not attended educational
        institutions in the Midwestern Disaster Area.


5
  A database the IRS maintains that contains information on the individual tax returns it receives.
6
  A collection of IRS databases containing various types of taxpayer account information that is maintained by the
Treasury Inspector General for Tax Administration for the purpose of analyzing data for ongoing audits.
7
  Some of the taxpayers inappropriately claiming the Hope Credit were IRS employees. We referred this
information to the Treasury Inspector General for Tax Administration Office of Investigations for further action.
                                                                                                            Page 3
                                        Many Taxpayers Who Were Not Eligible
                                        Received Additional Education Credits
                                        Intended for Those Attending Schools
                                            in Midwestern Disaster Areas


       •   For the remaining 52 cases, no Form 1098-T information was present on IRS records to
           indicate the students for which the credits were claimed attended any school. The
           absence of such supporting data is a strong indicator that the students listed may not have
           actually been qualifying students.

Three control weaknesses allowed the inappropriate claims
Three control weaknesses allowed taxpayers to inappropriately receive additional Hope Credits
intended only for students attending school in Midwest Disaster Areas.
       1. The IRS requires no third-party documentation with the tax return to support a claim for
          an education credit. As mentioned earlier, taxpayers are provided with copies of
          Form 1098-T. This form not only contains amounts taxpayers paid or were billed for
          education expenses, but also contains the name and address of the educational institution
          and an indicator of whether the student was at least a half-time student.
       2. Form 8863 contains no indicator that a student attended school in a Midwest Disaster
          Area or an indicator showing whether the student was at least a half-time student.
          Therefore, the IRS has no way to distinguish between a student attending school in a
          disaster area and a student for whom the taxpayer incorrectly claims more Hope Credit
          than he or she was entitled to claim. It also cannot determine whether the student was at
          least a half-time student.
       3. The IRS has not programmed its computers to limit the amount of Hope Credit claimed.
          Our review of the IRS’ Functional Specification Package8 for the processing of
          Form 8863 showed that there were no controls in place limiting the amount of Hope
          Credit that can be claimed other than adjusted gross income limits. Based on this and our
          case review, it appears the only other factor limiting the amount of Hope Credit is the
          amount of tax liability owed by the taxpayer. For instance, even though the maximum
          amount of Hope Credit is $3,600 for 1 student attending school in a Midwest Disaster
          Area, taxpayers claiming a $5,000 Hope Credit amount would receive the full amount if
          their tax liability was at least $5,000. If the same taxpayer claiming a $5,000 Hope
          Credit had a tax liability of $4,800, the Hope Credit would be limited to $4,800.
From our sample of 383 cases, we identified 4 cases for which the taxpayers claimed more than
the Midwestern Disaster Area maximum amount ($3,600) of Hope Credit for a single student. In
three of these cases, the taxpayer received more than the maximum amount allowed. ***1*****
*****************************************************************************
******.
Overall, we found that the taxpayers who filed the 197 tax returns in our sample and claimed
more than the standard maximum amount of Hope Credit but did not qualify for the increased

8
    The IRS’ detailed specifications for computerized tax return processing.
                                                                                               Page 4
                                      Many Taxpayers Who Were Not Eligible
                                      Received Additional Education Credits
                                      Intended for Those Attending Schools
                                          in Midwestern Disaster Areas


amount received $224,504 more than they were entitled to. Based on this data, we estimate that
taxpayers filing 48,940 tax returns with such claims erroneously received almost $55.8 million in
excessive Hope Credits.
We also found a correlation between where the primary taxpayer lived and whether the
student(s) actually qualified for the increased amount. We analyzed our sample cases by
comparing the primary taxpayers’ State addresses to the Midwestern Disaster Area States9 and
found that of the 197 exception cases, 132 (67 percent) of the primary taxpayers did not live in
States affected by the Midwestern disasters. From those in our sample with a student(s) that
qualified for the increased maximum, only three of the primary taxpayers lived outside one of the
States within the Midwestern Disaster Area.

Recommendations
Recommendation 1: The Director, Reporting Compliance, Wage and Investment Division,
should conduct post-refund examinations of erroneous claims to ensure refunds for excessive
claims are recovered. Form 1098-T information received from the educational institutions could
be used to validate whether the students attended eligible educational institutions located in
Midwestern Disaster Areas. It could also be used to determine whether the students were at least
half-time students.
         Management’s Response: IRS management agreed with this recommendation. The
         IRS will conduct post-refund examinations of the 197 cases we identified as improperly
         claiming the credit and will use the results of those examinations to evaluate the value of
         additional examinations.
Recommendation 2: The Director, Reporting Compliance, Wage and Investment Division,
should develop an automated process to utilize the data provided by education institutions on
Forms 1098-T to identify taxpayers claiming questionable claims for education credits. Claims
with no Forms 1098-T or claims for the Hope Credit with Forms 1098-T indicating students
were not at least half-time students or were graduate students should be scrutinized by the
Examination function. If an automated process cannot be developed, the Director should initiate
a requirement for taxpayers claiming education credits to attach Forms 1098-T to their tax
returns and the process described above should be performed manually during processing.
         Management’s Response: IRS management partially agreed with this
         recommendation. The IRS agreed to evaluate the feasibility of an automated process to
         use the Form 1098-T data and match it to the appropriate tax return. If feasible, the IRS
         will submit the necessary Unified Work Request. Because the requested action will be
         subject to funding and resource prioritization by the Modernization and Information

9
  Although eligibility for the increased credit was based on county, we performed this analysis by State because that
information was readily available on the Forms 1040 and the Forms 1098-T.
                                                                                                             Page 5
                               Many Taxpayers Who Were Not Eligible
                               Received Additional Education Credits
                               Intended for Those Attending Schools
                                   in Midwestern Disaster Areas


       Technology Services organization, submission of the Unified Work Request will
       complete this corrective action. The IRS will also test a filter in Fiscal Year 2011 to
       identify taxpayers with no Form 1098-T claiming education expenses. However, the IRS
       does not agree to ask the taxpayer to attach the Form 1098-T to the return. In the event
       an automated match cannot be accomplished, the IRS will select a sample of returns to
       review and manually match against available Form 1098-T data received from the
       educational institutions. The volume each year will depend on the labor intensive nature
       of the process and the relative success of the program compared to other correspondence
       examination programs.
Recommendation 3: If similar provisions are enacted in the law for future disasters, the
Director, Forms and Publications, Wage and Investment Division, should require taxpayers to
specifically indicate on Forms 8863 when they are claiming increased education credit because
of a disaster provision. Consideration should be given to modifying the Form 8863 with a check
box for this purpose. The Director should also consider a requirement to include the county and
State of the educational institution attended.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS will make the recommended changes to Form 8863 if similar legislation is enacted in
       the future.
Recommendation 4: The Director, Submission Processing, Wage and Investment Division,
should ensure that computer processing controls are set to limit the amount of Hope Credit that
can be claimed based on the number of students claimed and the maximum amounts allowable.
The Director should also ensure adherence to increased maximums on any future provisions.
       Management’s Response: IRS management agreed with this recommendation, and
       will submit a Unified Work Request, by January 15, 2011, to update computer processing
       controls limiting the amount of American Opportunity Credit (previously the Hope
       Credit) that can be claimed based on the number of students claimed and the maximum
       amounts allowable. Because the requested action will be subject to funding and resource
       prioritization by the Modernization and Information Technology Services organization,
       submission of the Unified Work Request will complete the corrective action.




                                                                                          Page 6
                                       Many Taxpayers Who Were Not Eligible
                                       Received Additional Education Credits
                                       Intended for Those Attending Schools
                                           in Midwestern Disaster Areas


                                                                                        Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether IRS controls were in place to ensure only
eligible taxpayers received education credit tax relief available to affected taxpayers in the
Midwestern Disaster Areas. To accomplish our objective, we:
I.         Determined the purpose of the education credit provisions available to affected taxpayers
           in the Midwestern Disaster Areas. We determined which taxpayers are eligible to claim
           the credits, the dollar limits associated with the credits, and whether adequate instructions
           were available for taxpayers to properly claim the credits.
           A. Reviewed the laws and regulations enacted by Congress to provide tax relief for
              affected taxpayers in the Midwestern Disaster Area.
           B. Reviewed the applicable Internal Revenue Code sections associated with the
              Midwestern Disaster Area (the Heartland Disaster Tax Relief Act of 2008).1 We
              determined whether information in Information for Affected Taxpayers in the
              Midwestern Disaster Areas (Publication 4492-B) thoroughly explains the tax
              provisions of the Heartland Disaster Tax Relief Act of 2008 and the related education
              credits.
           C. Reviewed the instructions provided to taxpayers in Tax Benefits for Education
              (Publication 970) or other applicable instructions dealing with education credits. We
              determined whether the explanation of the tax relief for Midwestern Disaster Area
              taxpayers is accurately and sufficiently explained in regards to the education credits.
           D. Determined whether it appears that the IRS interpreted and implemented the law in
              accordance with Congressional intent.
II.        Determined what IRS controls exist to ensure taxpayers are properly claiming the
           education credits for affected taxpayers in the Midwestern Disaster Areas.
           A. Interviewed IRS processing personnel and programmers to determine what controls
              are in place for the education credit dollar tolerances.
           B. Analyzed applicable IRS programming to determine what processing controls have
              been developed and implemented for the education credits to ensure that taxpayers
              are eligible for the higher amount of credit as defined by the Midwestern Disaster
              Area criteria.

1
    Pub. L. No. 110-343, 122 Stat. 3912.
                                                                                                 Page 7
                                      Many Taxpayers Who Were Not Eligible
                                      Received Additional Education Credits
                                      Intended for Those Attending Schools
                                          in Midwestern Disaster Areas


         C. Determined whether any post-processing controls exist which specifically review the
            education credits claimed by Midwestern Disaster Area taxpayers.
         D. Determined whether controls appear to be programmed and worked properly.
III.     Determined whether IRS controls ensure only eligible taxpayers are receiving
         Midwestern Disaster Area tax relief for the Hope Credit.
         A. Downloaded all cases from the Information Returns Transaction File2 located on
            Treasury Inspector General for Tax Administration’s Data Center Warehouse3 for all
            TY 2008 returns which have claimed more than the standard Hope Credit for
            taxpayers claiming one or two students. We analyzed the volumes of cases to
            quantify the extent of the possible problem.
         B. Performed validity checks of the data received in Step III.A. to ensure cases reviewed
            met our criteria.
         C. Selected and reviewed a statistically valid random sample4 of 383 TY 2008 Education
            Credits (American Opportunity, Hope, and Lifetime Learning Credits) (Form 8863)
            on which the taxpayer claimed more than the standard Hope Credit amount for 1 or
            2 students from a population of 95,149 returns meeting this criteria. We checked the
            Integrated Data Retrieval System5 to determine 1) where the taxpayer lived,
            2) where the student attended school, 3) whether the student was at least half-time,
            4) whether the taxpayer was entitled to the tax relief, and 5) whether there was any
            compliance activity on the account. We notated the types of processing errors.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: Wage and Investment Division policies,
procedures, and practices for processing Hope Credit claims. We evaluated these controls by
reviewing policies and procedures for processing education credits and reviewing processed
Hope Credit claims claiming more than the standard maximum credit allowed.


2
  A database the IRS maintains that contains information on the individual tax returns it receives.
3
  A collection of IRS databases containing various types of taxpayer account information that is maintained by the
Treasury Inspector General for Tax Administration for the purpose of analyzing data for ongoing audits.
4
  The sample was based on a confidence level of 95 percent, a precision of ±5 percent, and an expected error rate of
50 percent, resulting in a sample size of 383. We selected statistical samples because we wanted to project our
results over the entire population.
5
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 8
                             Many Taxpayers Who Were Not Eligible
                             Received Additional Education Credits
                             Intended for Those Attending Schools
                                 in Midwestern Disaster Areas


                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Kyle R. Andersen, Director
Bill R. Russell, Audit Manager
Douglas C. Barneck, Lead Auditor
Glory Jampetero, Senior Auditor
John Mansfield, Senior Auditor




                                                                                     Page 9
                              Many Taxpayers Who Were Not Eligible
                              Received Additional Education Credits
                              Intended for Those Attending Schools
                                  in Midwestern Disaster Areas


                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Media and Publications, Wage and Investment Division SE:W:CAR:MP
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Director, Tax Forms and Publications, Wage and Investment Division SE:W:CAR:MP:T
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS: CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                     Page 10
                                      Many Taxpayers Who Were Not Eligible
                                      Received Additional Education Credits
                                      Intended for Those Attending Schools
                                          in Midwestern Disaster Areas


                                                                                                 Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Revenue Protection – Potential; $55,773,489 in ineligible claims for the Hope Credit on an
    estimated 48,940 tax returns (see page 3).

Methodology Used to Measure the Reported Benefit:
We obtained all returns on the Individual Returns Transaction File1 which claimed more than the
standard maximum Hope Credit for one or two students during TY 2008. We identified
95,149 taxpayer returns that met these criteria. We reviewed a statistically valid sample of
383 cases to determine if the students attended eligible institutions located in the Midwestern
Disaster Areas. We further analyzed these cases to determine the amounts of Hope Credit that
taxpayers received that they were not entitled to.
Our review of the 383 cases showed that 197 cases (51 percent) did not qualify for the higher
amount of Hope Credit claimed. These 197 cases consisted of 101 cases (26 percent) that did not
include students that attended qualified institutions in Midwestern Disaster Areas, 44 cases
(11 percent) that did not qualify for the Hope Credit because they were not at least half-time
students or they were graduate students,2 and 52 cases (14 percent) that did not have Tuition
Statements (Form 1098-T) on file with the IRS showing that they were, in fact, students. The
total amount of Hope Credit these taxpayers received that they were not entitled to was
$224,504. From our population of 95,149 taxpayers, we estimate that taxpayers filing 48,940 tax
returns with such claims received $55,773,489 in Hope Credits to which they were not entitled.
Our estimate is based on a 95 percent confidence level and a precision (range) of +/- $9,229,563.




1
  A database the IRS maintains that contains information on the individual tax returns it receives.
2
  Even though these taxpayers did not qualify for the Hope Credit, their education expenses likely qualified them for
the Lifetime Learning Credit. Our computations took into account the amount of Lifetime Learning Credit that the
taxpayers would be eligible for.
                                                                                                            Page 11
           Many Taxpayers Who Were Not Eligible
           Received Additional Education Credits
           Intended for Those Attending Schools
               in Midwestern Disaster Areas


                                                   Appendix V

Management’s Response to the Draft Report




                                                        Page 12
Many Taxpayers Who Were Not Eligible
Received Additional Education Credits
Intended for Those Attending Schools
    in Midwestern Disaster Areas




                                        Page 13
Many Taxpayers Who Were Not Eligible
Received Additional Education Credits
Intended for Those Attending Schools
    in Midwestern Disaster Areas




                                        Page 14
Many Taxpayers Who Were Not Eligible
Received Additional Education Credits
Intended for Those Attending Schools
    in Midwestern Disaster Areas




                                        Page 15
Many Taxpayers Who Were Not Eligible
Received Additional Education Credits
Intended for Those Attending Schools
    in Midwestern Disaster Areas




                                        Page 16
